<html>
<title> - PROSPECTS FOR DEMOCRACY AND PRESS FREEDOM IN HONG KONG</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





         PROSPECTS FOR DEMOCRACY AND PRESS FREEDOM IN HONG KONG

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 3, 2014

                               __________

 Printed for the use of the Congressional-Executive Commission on China


   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.cecc.gov

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

87-704 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800;
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

SHERROD BROWN, Ohio, Chairman        CHRIS SMITH, New Jersey, 
CARL LEVIN, Michigan                 Cochairman
DIANNE FEINSTEIN, California         FRANK WOLF, Virginia
JEFF MERKLEY, Oregon                 ROBERT PITTENGER, North Carolina
                                     MARK MEADOWS, North Carolina
                                     TIM WALZ, Minnesota

                     EXECUTIVE BRANCH COMMISSIONERS

                NISHA DESAI BISWAL, Department of State

                    Lawrence T. Liu, Staff Director

                 Paul B. Protic, Deputy Staff Director

                                  (ii)





















                             CO N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening statement of Hon. Sherrod Brown, a U.S. Senator from 
  Ohio; Chairman, Congressional-Executive Commission on China....     1
Chan, Anson, former Chief Secretary for Administration of Hong 
  Kong; former Member, Legislative Council of Hong Kong (2007-
  2008); and Convener of Hong Kong 2020..........................     3
Lee, Martin, Barrister; Founding Chairman, Democratic Party of 
  Hong Kong; former Member, Drafting Committee for the Basic Law; 
  and former Member, Legislative Council (1985-2008).............     4

                                APPENDIX
                          Prepared Statements

Brown, Hon. Sherrod..............................................    18
Smith, Hon. Christopher, a U.S. Representative from New Jersey, 
  Cochairman, Congressional-Executive Commission on China........    18

 
         PROSPECTS FOR DEMOCRACY AND PRESS FREEDOM IN HONG KONG

                              ----------                              


                        THURSDAY, APRIL 3, 2014

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 12:09 
p.m., in room 385 Russell Senate Office Building, Senator 
Sherrod Brown, Chairman, presiding.
    Present: Representative Mark Meadows.
    Also present: Lawrence Liu, Staff Director; Paul Protic, 
Deputy Staff Director; Andrea Worden, Senior Counsel; and David 
Petrick, Research Associate.

 OPENING STATEMENT OF HON. SHERROD BROWN, A U.S. SENATOR FROM 
  OHIO; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Brown. Thank you all for joining us. Apologies for 
being late, and apologies, too, for turning this over after 
making a few remarks and hearing Ms. Chan and Mr. Lee give us 
some comments. Then I will turn it over to Lawrence Liu and 
Paul Protic will also help to run this roundtable, all on the 
record, of course. Of the two, I know Mr. Liu significantly 
better and the work he does especially. I'm so appreciative of 
how he has staffed this Commission and done such good work. So, 
thanks to all of you.
    One of the great things about this Commission is that we 
bring in heroes who have shown great courage and have done very 
important work for freedom in their own countries and as role 
models for those around the world, and that's why it's my 
particular pleasure to meet and to introduce in a moment Ms. 
Chan and Mr. Lee.
    I am reminded of that courage when we look at what's 
happened in the last couple of weekends in Taiwan, with 
students, at potential great cost to their futures and maybe to 
their safety, have done what they've done in Taiwan and Taipei. 
It's obviously very different. Hong Kong is very different, of 
course, in terms of its relationship with China.
    But like in Taiwan, the Hong Kong Government is trying to 
decide and set a hugely important process and policy with 
little public input or little transparency. That's what they 
have in common, and it was the trade agreement with China and 
Taiwan. It's the process by which they will elect the chief 
executive and legislature in Hong Kong, and these are two 
people that represent the courage and heroism that we all are 
so proud of in this country, and around the world.
    They are long-time public servants. They've devoted their 
careers for many years, pre-1997, since 1997, to Hong Kong's 
freedom and democracy. Again, I apologize, we're in the middle 
of a mark-up in the Finance Committee so I can't stay long, but 
I do want to hear their statements.
    China promised to let the people of Hong Kong elect freely 
their leaders and enjoy the freedom of speech and freedom of 
press and freedom of religion. The People's Republic of China 
is backtracking on these promises they made to Hong Kong and 
these promises they made to the world.
    In just three short years, the people of Hong Kong are to 
elect their leader, their Chief Executive, in the first 
election by universal suffrage, something that country after 
country, including ours, got to. I won't go into compromises of 
that universal suffrage that too many American politicians seem 
to be engaging in now, but we know that China is already 
placing conditions, sort of pre-conditions, on who can run, 
raising serious doubts about whether the election will be free 
and fair.
    Mr. Lee, I know, had a very interesting statement comparing 
that to what might happen in this country if we had the same 
kind of rules. The environment for freedom of the press in Hong 
Kong is deteriorating. Incidents of violence and harassment 
against journalists have risen.
    We have had a number of discussions in this Commission 
about harassment that sometimes borders into violence against 
journalists, how insidious that is. The Commission has made it 
a priority to monitor and report on developments in Hong Kong. 
We'll continue to do that.
    We must hold, and this Congress, this Commission, must hold 
China accountable for its commitments and continue to listen to 
and learn from people like our distinguished panelists today. 
Too much is at stake in Hong Kong, and it's not just Hong Kong. 
You know what Hong Kong symbolizes to people around the world.
    At the end of the day, Hong Kong is more than a financial 
center of 7 million people. It is a test of China's commitment 
to the internationally recognized rights of people everywhere 
to freely elect their leaders and to enjoy those basic freedoms 
that flow out of that. It is a test of whether China will allow 
genuine democracy and freedom to take root in Hong Kong.
    We all on this Commission, and I can't always speak for 
Cochairman Smith, every member of this Commission, urged China 
to follow through on the commitments that it made in 1997 and 
the commitments that it says it has made since.
    Let me introduce the two witnesses and then we'll call on 
Ms. Chan for five minutes, and then Mr. Lee for five minutes.
    Anson Chan is one of the highest profile democracy 
advocates in Hong Kong. She served as Hong Kong's chief 
secretary, first under British rule and then after the handover 
to China in 1997. She was the first ethnic Chinese to hold that 
position, the second highest in Hong Kong, which oversees the 
civil service. She has been described as one of the most 
powerful women in Asia. She is currently involved in the Hong 
Kong 2020 campaign, which advocates for constitutional changes 
to achieve full universal suffrage.
    Ms. Chan, thank you very much for joining us.
    Ms. Chan. Thank you.
    Chairman Brown. Martin Lee is one of the most high-profile 
advocates of democracy in Hong Kong. He is currently a top 
barrister. He is the founding chairman of the Democratic Party 
of Hong Kong. He served in Hong Kong's Legislative Council from 
1985--prior to the handover--to 2008. He is also a former 
member of the drafting committee for Hong Kong's Basic Law. Mr. 
Lee, thank you. Ms. Chan, if you would talk to us first.

      STATEMENT OF ANSON CHAN, FORMER CHIEF SECRETARY FOR 
ADMINISTRATION OF HONG KONG; FORMER MEMBER, LEGISLATIVE COUNCIL 
    OF HONG KONG (2007-2008); AND CONVENER OF HONG KONG 2020

    Ms. Chan. Senator Brown, first of all, on behalf of Martin 
and myself, thank you very much for inviting us to this 
session. I have to say that both of us are very encouraged by 
your earlier remarks. This is the 17th year after the reversion 
of sovereignty to China and it is the 30th anniversary of the 
signing of the international treaty--the Sino-British Joint 
Declaration.
    I wish I could say that everything is fine, but 
unfortunately, the reality on the ground is that ``one country, 
two systems'' is not working well. Two systems seem to be 
rapidly going out of the window. We have continuing and blatant 
interference from Beijing and from its representative office in 
Hong Kong, known as the Liaison Office.
    We see our core values coming under increasing pressure and 
attack, core values such as openness, transparency, accountable 
government, a level playing field, regard for the rule of law, 
protection of the basic rights and freedoms that we enjoyed for 
many, many decades under British rule and which are protected 
under our constitution, the Basic Law.
    In particular, we are very concerned at certain basic human 
rights being curtailed and coming under increasing stress, 
particularly freedom of expression, freedom of assembly, and 
freedom of the press and free flow of information.
    So this entire quest for a democratic system of government 
is all about whether we can continue to keep a separate 
identity. That identity is guaranteed by the Basic Law and that 
identity has everything to do with the central pillars of Hong 
Kong's success as an international city and an important 
regional and financial services center. These are our core 
values, our regard for rule of law, our respect for human 
dignity, and for a whole range of rights and freedoms that you 
associate with a fully fledged democracy.
    Hong Kong people value these rights. We have demonstrated 
time and again that we will not stand idly by if we see these 
rights being trampled upon. We have a whole young generation of 
people born after 1997 who have known nothing except life under 
Chinese sovereignty. They are politically savvy, they are 
courageous, they are prepared to stand up and be counted. 
Therein, perhaps, lies our best hope for a truly democratic 
system of government.
    We know that the fight is very much up to us, but we think 
it is extremely helpful for our friends--in particular our 
friends in America--because we share core values with you and 
you have a stake in Hong Kong, you have nationals living there, 
you have huge investments in Hong Kong--we think it helps for 
you to let it be known to Beijing that you are watching. As you 
say, you are watching to see what happens in Hong Kong.
    Is China going to honor its promises to the people of Hong 
Kong? It's a very simple request we are making and it is 
entirely doable.
    Thank you very much.
    Chairman Brown. Thank, you, Ms. Chan.
    Mr. Lee?

    STATEMENT OF MARTIN LEE, BARRISTER, FOUNDING CHAIRMAN, 
    DEMOCRATIC PARTY OF HONG KONG; FORMER MEMBER, DRAFTING 
  COMMITTEE FOR THE BASIC LAW; AND FORMER MEMBER, LEGISLATIVE 
                COUNCIL OF HONG KONG (1985-2008)

    Mr. Lee. ``One country, two systems.'' One country was 
implemented at midnight on June 30, 1997, when the British flag 
came down and the Chinese flag went up. That is one country. 
But two systems have yet to be successfully implemented because 
without democracy, without allowing Hong Kong people to elect 
by democratic means their leader, the Chief Executive, and all 
members of the legislature, there is no way for Hong Kong 
people to rule Hong Kong with a high degree of autonomy.
    Hong Kong people cannot be masters of their own house 
without being given the vote. Hence this urgency which caused 
us to come to Washington, DC. This, as I see it, is the last-
ditch effort. Very soon the Hong Kong Government will decide--
rather, the Chinese Government will decide for it--in what way 
our next Chief Executive is to be elected in the year 2017.
    The Chinese Government no doubt wishes to give Hong Kong 
people the vote: one person, one vote. But they want to be 
assured that whoever wins must be Beijing's blue-eyed boy or 
blue-eyed girl. In other words, this person must fully obey 
Beijing's orders. How do they do that? They want to control the 
nomination process. They want to make sure that, through the 
nomination committee which Beijing will control, only two or 
three puppets pre-selected by Beijing will be able to run. That 
is what they want to happen.
    That is why we have come to tell the people here--and we 
will be traveling to other countries too--that this is what 
they are trying to do, in breach of China's international 
agreement made with the British Government in the Sino-British 
Joint Declaration.
    Now, we are not bringing a message of despair, although we 
have many serious concerns about what is happening in Hong 
Kong. We are bringing a message of hope, because there is still 
hope yet, if we can finally get it right, so that Hong Kong 
people will have the power to decide who is going to run Hong 
Kong in the future.
    Therein lies hope, hope that all of our freedoms will be 
protected under the rule of law, which makes Hong Kong 
different from any other Chinese city, and also hope that China 
will implement international agreements. This will give 
assurance to the rest of the world that Chinese treaties count.
    Now, to turn this message of hope into reality, of course, 
we, the people of Hong Kong, will do our part. We will do 
whatever is necessary to make sure that we, the people of Hong 
Kong, do become masters of our own house.
    But the international concern which was expressed here, 
Senator, helps us to fight for what is rightfully ours and what 
is already promised to us by the central government. We want it 
to work, so that my vision for China can be accomplished, which 
is that the 1.3 billion people of China will have their 
freedoms acknowledged and protected by the rule of law. That is 
my vision for China.
    Chairman Brown. Thank you so much, Mr. Lee.
    Ms. Chan exhorted us to ``let it be known to Beijing, all 
of this.'' That is the charge of this Commission. We will 
certainly do that. I know that all of you watching--I hope 
those of you watching, listening, or those of you who are 
actually here, will do the same. So I apologize again and we'll 
turn it over to Mr. Liu to continue the roundtable.
    Ms. Chan. Thank you so much, Senator.
    Chairman Brown. Thank you so much. Ms. Chan, Mr. Lee, thank 
you very much. And Paul, thank you, too. Thanks.
    Mr. Liu. Ms. Chan and Mr. Lee, thank you so much for your 
very important remarks. We may have other Members of Congress 
joining us. It's a busy day, as you know, with mark-ups and 
things like that, but in the event that other Members of 
Congress come, we'll give them an opportunity to speak as well.
    But our roundtables are generally staff-led and we have 
some questions that we've prepared for you and hope that we can 
have a nice, free-flowing discussion. I have some questions. My 
colleague Paul Protic also has some questions, and David 
Petrick over here is on our staff and he actually covers the 
Hong Kong issue. We have a staff member who is in charge of 
following developments in Hong Kong, which indicates how 
important this issue is to the Commission.
    Mr. Lee. And let us thank you for your help, for without 
your help, this cannot happen.
    Mr. Liu. Let me just start with a question. We've heard 
about the Occupy Central movement, which may not be as 
understood here in the United States, just given how maybe not 
enough attention is being paid to Hong Kong. But can you tell 
us more about the Occupy movement and who's behind it, how 
popular it is, and what they're looking for? How do you think 
the authorities might respond if it moves forward?
    Mr. Lee. Occupy Central is not the same as Occupy Wall 
Street. It was the brainchild of a young associate professor of 
law at Hong Kong University who used to be a summer student in 
my chambers. He got fed up with waiting for democracy, and one 
day when he was at a public seminar, which I also attended, he 
suddenly came up with this idea of Occupy Central. He said, 
``Look, we have been demonstrating in Hong Kong for democracy 
for so long, and Beijing does not listen. We've been holding 
hunger strikes, and they do not listen. We always like to do 
things peacefully. What must we do next? ''
    He came up with this idea of Occupy Central. He said, it 
appears that Beijing still won't give us genuine democracy, 
meaning democracy in accordance with international standards 
and also in keeping with our constitution, the Basic Law, which 
not only guarantees that the permanent residents of Hong Kong 
will be given the vote, but also the right to stand for 
elections, which are two sides of the coin; and you can't have 
one without the other.
    So he says, ``If we are not going to have genuine democracy 
after so many years of waiting, then let's Occupy Central.'' 
His idea was that large numbers of people will occupy the 
central part of Hong Kong so that traffic will be blocked.
    And we'll be waiting for the police to arrest us. And if 
they arrest us and prosecute us, we will not fight the case. We 
will go to prison. I use the word ``we,'' for I'll be there. So 
that's the idea. It has gathered great momentum in Hong Kong 
because a lot of Hong Kong people too, have been waiting and 
waiting and don't know what to do. What better thing to do than 
Occupy Central?
    A lot of people say that it's like throwing eggs at the 
wall. And we are the eggs. We are prepared to sacrifice our 
freedom, which we cherish, and go to prison, so that we, and 
our next generation, will have democracy in Hong Kong. We are 
prepared to pay a dear price for it.
    But the idea of this associate professor, Benjamin Tai, is 
that, hopefully, we don't need to Occupy Central, for 
hopefully, Beijing will see that it is only right for it to 
honor its promises already given to the people of Hong Kong and 
to the international community. So if it gives to Hong Kong a 
system of election which accords with international standards--
and it will be judged by international law experts studying the 
proposal--then there will be no Occupy Central. So that's the 
idea: we will Occupy Central if there's no good proposal which 
satisfies international standards. If there is, then we will 
not Occupy Central.
    Ms. Chan. Let me just add one or two other remarks. As 
Martin says, it was a proposal borne out of sheer frustration 
and desperation. But ever since this proposal was given, 
there's no doubt that it has touched a raw nerve in Beijing, 
maybe because they are very concerned about their international 
image. The very thought that an Occupy Central picture will be 
splashed all over the international media, they do not 
particularly like.
    So what they have done since then is to roll out the big 
guns and use every single means to demonize the entire 
initiative and the architects behind this proposal. Well, I 
concur, as on many other occasions, this sort of proposal, this 
sort of behavior only makes people sit up and take more notice. 
They've been exaggerating the economic loss and have warned of 
sheer havoc, as Martin says.
    The government can easily avert Occupy Central. All it 
needs to do is do what it's supposed to being doing, which is, 
put forward a credible set of universal suffrage proposals, 
forge a community consensus, and secure the necessary majority 
in the legislature to get it passed. You then persuade Beijing 
that this set of proposals is the minimum that is acceptable to 
the people of Hong Kong.
    Mr. Lee. And the organizers, of course, stress that the 
entire movement will be based on two things: peace and love. 
For they are Christians, who treasure peace and love.
    Mr. Liu. Okay. Thank you.
    I have another question. Hong Kong has now been part of 
China almost 17 years, and I'm just curious to know, since we 
have you and you have the pulse in many ways of the community 
there, how connected do the people of Hong Kong feel to 
mainland China and how is that playing into the current debates 
and discussions over universal suffrage?
    Ms. Chan. Well, economically I think there is ever-closer 
cooperation and some people who describe it as integration. Let 
us not forget that it was Hong Kong money and Hong Kong 
managerial know-how that kick-started the entire mainland 
economy and the power of the Pearl River Delta region. It may 
come as a surprise to some that even today, after four decades 
of open-door policy and phenomenal economic goals, Hong Kong 
remains the largest single external investor in the mainland.
    People to people? Again, getting closer. We have millions 
of mainland visitors. We have an agreement with the mainland 
authorities whereby people come in on a one-way permit for 
permanent residence under an arrangement that has existed for 
quite a number of years, whereby we take in 150 people every 
day from the mainland for permanent residence. These are 
largely for family reunion purposes because you have people 
marrying mainlanders, so they want to bring their wives and 
husbands and they want to bring their children.
    But in the wake of huge influxes of mainland visitors, and 
given that Hong Kong is only 1,000 square kilometers, of which 
about 40 percent is country park, and given the fact that our 
social and health services all have limited capacity, this huge 
influx has unfortunately led to hostilities. It is little 
wonder because we have mainlanders coming in, they sweep up 
everything in sight: milk powder, even toilet paper. Why? 
Because they cannot trust milk powder in the mainland.
    So parents in Hong Kong who want to go and buy milk powder 
find that they have to go to several pharmacies and still 
cannot get enough milk powder. At one time, all of the 
maternity beds in hospitals were taken up by pregnant 
mainlanders so that Hong Kong women who wanted to deliver a 
baby could not find a bed at a suitable cost.
    So this hostility is something that I think we in Hong 
Kong, particularly the government and also the mainland 
authorities, need to look at and work out because it should not 
be this way. If you take measures, you can reduce the degree of 
hostility because it is not in our interests and it is not in 
the interests of the mainland to have this hostility continue.
    Now, it is a fact, of course, that with the growing 
economic clout of mainland China, the fact that the rest of the 
world all wants to do business with them, maybe they no longer 
feel, as at the time of the handover, that they still need Hong 
Kong. But there are others--there is a more moderate voice in 
mainland China which tends to be forgotten. Not everybody 
within the Party hierarchy speaks with one voice.
    The leadership hierarchy is not monolithic. There is a more 
moderate voice. I feel that in Hong Kong, by sticking to our 
principles, to our values, we give encouragement to the small, 
moderate voice so that over time you will see improvements in 
human rights; you will see a degree of political 
liberalization, maybe not at the pace at which we want to see 
it, but nevertheless it will come.
    So it is very important, important not just for us in Hong 
Kong, but important for China and for the rest of the world 
that Beijing is made to deliver on its promises that we have 
genuine democracy, because that's the only way of holding our 
Chief Executive accountable, that we can maintain a level 
playing field, the rule of law, and protect all our rights and 
freedoms.
    Mr. Lee. I would just like to add one thing. I'd rather 
have them, the people of China, coming to Hong Kong to buy milk 
powder than we, the people of Hong Kong going to mainland China 
and buy our milk powder there.
    Mr. Liu. I just wanted to introduce Congressman Meadows, 
one of our Commissioners, who is just joining us. I know he's 
very glad to see you guys.
    Representative Meadows. My apologizes for being late. Thank 
you so much. I think probably for me, as we've started to look 
at this, is the challenges that we've seen from freedom of the 
press, from some of this stifling there, tell me how we can 
better encourage and use, I guess, our encouragement through 
negotiations to address those areas where we continue to hear a 
number of reports about not only firewalls, perhaps the need 
for those to not be put up or where we can breach those, the 
freedom of the press, some of the things that have been 
stifled. As we start to look at freedom overall, one of the key 
areas that I see is that whether it is with Hong Kong or with 
mainland China, is how do we encourage that freedom overall? So 
anybody that could comment on that would be great.
    Mr. Lee. Well, freedom of the press, to me, is the freedom 
of all freedoms, because without it, no other freedom is safe. 
Nobody will hear about any infringement of freedoms if there's 
no freedom of the press. Nobody will hear what the government 
does to its people. So freedom of the press is the most 
important freedom.
    Of course, we should not have to fight for freedom of the 
press in Hong Kong because we already had it under British 
rule. And the Chinese Government clearly promised the whole 
world that all of our freedoms will remain intact for 50 years 
unchanged.
    But if we, in Hong Kong, cannot preserve our freedom of the 
press, how can we hope that the freedom of the press will ever 
be spread to mainland China? Unfortunately, freedom of the 
press has always been under pressure from Beijing. That is, I 
suppose, to be expected of the Communist government. One knows 
that all Communist governments simply do not like freedom of 
the press. They don't like people to know what they are doing 
to their own people.
    And self-censorship has long been a big problem in Hong 
Kong because the Chinese Government has so much money. And 
recently the only truly independent newspaper in Hong Kong, 
called the Apple Daily, had its advertisements removed by 
international banks, because Beijing's representatives in Hong 
Kong, called the Central Government Liaison Office have been 
speaking to these banks and asking them to lift their 
advertisements already placed with the Apple Daily.
    And some of those banks actually did what they were asked 
to do. And one such bank was the HSBC, Hong Kong and Shanghai 
Banking Corporation. Now, if even these international banks 
listen to the Communist Chinese Government and withdraw their 
advertisements from the only independent newspaper in Hong 
Kong, the erosion of the freedom of the press can only get 
worse and worse.
    But it shouldn't happen like this. And Beijing promised 
that it would not happen. Unfortunately, we have to come here 
and remind the rest of the world that this is happening. Of 
course, we in Hong Kong will do our best to prevent this from 
getting worse. But we cannot do it alone in Hong Kong. We need 
the attention and support of the rest of the world.
    Ms. Chan. The fact that the Liaison Office is muscling in 
on the press means that there will be many who will toe the 
line because they feel that, at the end of the day, their 
business interests are affected.
    There are very few owners and proprietors of media who have 
such deep pockets that they can afford not to toe the Beijing 
line, and these are getting fewer and fewer. So this is one 
area of concern, so you see increasing self-censorship. If you 
stop the independent-minded press upfront and advertisements 
are a crucial source of income, then this is the result that 
you get.
    I think two things are very important. The first is that 
the commercial sector itself must realize what are the 
implications for them, for their own commercial activities, for 
their independence and their ability to make business decisions 
without political interference, if they take a short-term view 
that by giving in and capitulating to demands from Beijing, 
that that is the best way forward. It is not. Because my 
experience is that if you roll over and if you pull your 
punches, it does not encourage Beijing to take a more moderate 
line. They will just demand more the next time around.
    So the business sector's awareness and the business 
sector's courage in speaking up and saying, ``Hey, this will 
not do; if you do this, then we must re-think about whether 
Hong Kong remains an attractive place for us to invest in and 
to live and work in.''
    The other is, I think the media as a whole--I know that 
there are considerable pressures on media and increasing 
competition. It is entirely understandable that maybe they will 
tiptoe around sensitive subjects like human rights and whatnot, 
but again, the same argument goes.
    So we need more coverage, we need more people prepared to 
talk about it, and above all we need more in the business 
sector who are prepared to stand up to this sort of arm 
twisting.
    Representative Meadows. Well, thank you both for that. I 
want to follow up because I was hoping that you would touch on 
that. We've heard a number of different stories where this, as 
you would call it, the media doing their self-sanctioning, so 
to speak, but it really becomes an economic pressure and as an 
elected official I can assure you there's a number of media 
outlets I would love to sanction and make sure that they----
    [Laughter].
    Representative Meadows. However, that is not what makes us 
great, or our country great. So how do we best highlight this 
issue, because it is not happening just in Hong Kong, it's 
happening in a number of other countries within the region who 
do business with a number of Chinese companies. We're hearing 
more and more reports of either advertising that gets pulled or 
encouragement to not cover a particular area.
    So this would not only go with human rights but with 
elections, with a number of other areas when you do not have, 
what I would say, a very inspective media. How do we put the 
pressure there without China seeing it as us interfering with 
their sovereignty, of which we would support as well? We 
understand that. So how do we best approach that, other than 
asking for somebody to be patriotic and take a punch in the 
nose?
    Mr. Lee. Well, let's be realistic. What any foreign 
government does or says which offends Beijing will be 
condemned. You just cannot get out from that. If you believe 
that China ought to improve here or there and you say so, they 
avoid that. And the Chinese Government will say, ``mind your 
own business.''
    But, I suggest that there is a good response to that, 
namely, Hong Kong is not China's internal affairs, because 
China has voluntarily made it an international affair by 
signing the international treaty with Great Britain over Hong 
Kong and having it registered with the United Nations.
    Even more importantly, before the Sino-British Joint 
Declaration was first announced in public, the Chinese 
Government and the British government worked very hard to get 
the support of the international community, for it was feared 
that without international support, there would be massive 
emigration from Hong Kong. And they were immensely successful 
in their effort.
    So when the Joint Declaration was first announced September 
26, 1984, many governments came out openly and applauded it, 
including the U.S. Government, because these governments 
believed that the Joint Declaration would work, with the 
promise that all our core values specifically mentioned in it 
would be preserved for 50 years unchanged.
    Thus your government has a good answer: ``Hong Kong is our 
business because you made it our business. You wanted us to 
support you. And we supported you; and we still support you. So 
please make it work.''
    Of course, any businessman in the States wishing to invest 
in China would be very concerned if there is no free flow of 
economic information, true information, about a particular 
company that he wishes to invest in.
    So if I were an American businessman investing in China, I 
would obviously support the freedom of the press in Hong Kong, 
to make sure that there is a free flow of economic information 
there. But the trouble is that, too many overseas business 
people prefer to take a short-term view, and adopt a cowardly 
and selfish stance, by leaving it to other people to speak up. 
For they don't want to jeopardize their business opportunities 
in China. But if they all cave in like this, their interest, 
they will all eventually suffer. I am also concerned that even 
foreign chambers of commerce are not speaking up. I can 
understand if individual members of these chambers do not have 
the guts to speak up, but that makes it more important that 
their chambers of commerce which represent them should speak 
up. But I have to say that very few--if any--speak up. This is 
our experience in Hong Kong.
    Ms. Chan. I think it's important for the United States' 
administration and for large organizations and governments 
everywhere to take an unequivocal and principled stance on 
their core values--of which press freedom is a very important 
core value--because whatever the initial reaction from Beijing, 
I think ultimately it invites more respect.
    I was hearing from one of the reporters--I think it was 
Paul Mooney who was complaining about how he couldn't get a 
visa and whatnot. Well, my immediate reaction to that was, 
well, maybe two can play at the same game.
    Representative Meadows. So your suggestion then would be a 
firmer response from the administration in terms of--instead of 
trying to say, well, gosh, highlight the problem and saying 
work with us, is a firmer response in terms of not only what we 
expect, but with regards to visas, I guess as you're pointing 
out, is to say that denial of visas here would have a 
retaliatory effect in the United States. Is that what you're 
suggesting?
    Ms. Chan. No. All I'm suggesting is that if you are 
concerned that journalists are not able to go about their 
legitimate business and their legitimate business is not just 
in the interests of this government and the people here, but 
also, I think, in the interests of China as a whole and the 
entire world, then the government should consider whether it is 
better to tiptoe around and hem and haw rather than take very 
principled steps.
    Representative Meadows. All right.
    Let me go a little bit further. So if we look at perhaps 
elections that are coming up, the independence of the judicial 
area, if we do not have the freedom of the press, how are we to 
rely in terms of those particular issues in terms of, are they 
truly independent, as they relate to Hong Kong? How do we make 
the best determinations here in the United States in terms of 
the narrative that is out there? Are there other forms of 
media, Facebook, Twitter? I mean, do those become the way to 
get the truth out there, or how do we do that?
    Mr. Lee. It may well be so because they are more difficult 
to control. Hong Kong newspapers are so easy to control, and 
radio stations, and television stations, too. Recently, the 
Hong Kong Government made the Hong Kong people very angry when 
it changed its position drastically and unreasonably on the 
issue of licenses to free television stations. Originally the 
government announced that if an applicant can fulfill all the 
requirements, it will be given a license. It also said that 
there would be no limit as to the number of licenses. Three TV 
stations applied, and the government's own advisors found that 
all three were eligible. But the government decided that it 
would issue licenses only to two of them, which had been 
operating in Hong Kong for many years. But as one of those two 
is so hopeless that there has never been any competition 
between the existing two stations. But the third TV station, 
whose application was refused, would have brought genuine 
competition to the market. Although the government can control 
radio and television broadcasts, there is hope that, with the 
advancement of modern technology, Facebook, Twitter, and 
others, it will still be difficult for the government to 
control the freedom of expression, at least, in the near 
future.
    Representative Meadows. Well, I have heard reports, and 
I'll let you follow up, that those Facebook, Twitter, whatever 
it may be, social media, goes along and as long as those issues 
are non-controversial, that they continue on with the free 
flow. The minute that they get more controversial in nature, 
that there is a number of initiatives that happen that don't 
allow the free flow of information. Is that what you 
experienced or heard?
    Ms. Chan. It is true that in the mainland there are 
attempts even to interfere and to censor social media, the 
Internet, and whatnot. Fortunately--and I hope for a long, long 
while--this is not yet the case in Hong Kong. Young people 
today largely communicate, and you would be surprised how 
quickly word spreads through social media, through mobile 
telephone text messages.
    Representative Meadows. There are times when I'm not so 
surprised.
    [Laughter].
    Ms. Chan. But in response to your question, I think that if 
the media practices self-censorship and the truth is not 
getting out, it's so much more important that the movers and 
shakers in this country and elsewhere come to Hong Kong to 
visit and see for themselves what is actually happening on the 
ground.
    We need more professionals, people in the legal profession, 
people, journalists, to come and see the state of health of the 
press, the state of health of our legal profession, and the 
state of health of the rule of law. All these will give you a 
much more accurate picture instead of simply relying on the 
sense of the press and on routine reports that are turned up.
    Mr. Lee. On the rule-of-law front, there are worrying 
signs. First, about two years ago, Mr. Xi Jinping, now the 
President of China came to Hong Kong in the capacity of Vice 
President, said to the Chief Justice of Hong Kong on a public 
occasion and in the presence of all senior government 
officials, that judges must cooperate with the government. That 
shows he has little regard for the separation of powers.
    Then, on the occasion of the retirement of a senior judge 
of the Court of Final Appeal, he said openly that ``a storm of 
unprecedented ferocity is approaching.'' He was referring to 
the rule of law. So the rule of law is clearly under threat.
    Representative Meadows. Well, I'm going to close on mine 
because we've got very capable staff here that are very 
prepared and much more able to ask the piercing questions that 
perhaps will illuminate some of the issues.
    But I want to close with this last question. How do we best 
address these issues, whether they be human rights issues, 
trade issues, freedom of the press issues, without the Chinese 
people believing that it is antagonistic toward them? Because 
that is not the intent of most Americans.
    Most Americans see it as a relationship; that they want to 
have a good relationship based on mutual trust and respect, but 
yet when you identify these areas it can sometimes appear to be 
more antagonistic. How do we best identify the problems, 
address them without the antagonistic rhetoric or meaning 
behind it for the Chinese people?
    Mr. Lee. I would not pretend to be able to give any advice 
to you, Congressman, or your very able staff. But I would have 
thought, as always, that we should call a spade a spade.
    I've just had a quick glance at a few pages of your report 
on Hong Kong. It was beautifully done. You told the truth about 
Hong Kong. You do not antagonize anybody, and you tell the 
truth plainly.
    Ms. Chan. Can I add, I think trust is a two-way street. 
There has to be a willingness to compromise, to accommodate 
each other's differences, and perhaps even sometimes to agree 
to disagree. I think we need to point out that we have an 
international treaty. Hong Kong is an international city.
    I spent my entire career in the public service and I 
remember, both in the immediate run-up to 1997 and in the years 
following, certainly in the four years that I still served with 
the SAR [Special Administrative Region] Government, we were 
regularly rolled out to come to this country, to other 
countries, to instill confidence in the Joint Declaration and 
the Basic Law, to say you have nothing to worry about, it will 
be business as usual, there will be ``one country, two 
systems,'' and the rights and freedoms that Hong Kong people 
enjoy and the rule of law will remain intact.
    Nothing has changed since then. What we are asking is an 
entirely doable deal. We're asking no more than that Beijing 
honors its promise to the people of Hong Kong. That is good not 
just for us, but for China as a whole and for the rest of the 
world.
    I am Chinese. Martin is Chinese. We regard ourselves every 
bit a patriot. But in my definition, being a patriot does not 
mean I have to agree with everything that the Central 
Government is doing, nor do I necessarily have to preach the 
Communist cause. This is the whole difference between one 
country and two systems.
    I want to see a strong China, but I believe a strong China 
cannot be just strong in economic terms, but has to be strong 
in terms of the leadership's confidence in the way it deals 
with its own people and its respect for human dignity and in 
giving to its people basic rights and freedoms.
    Now, Hong Kong has always been a model in this respect and 
all we ask is that you allow us to continue to keep our 
identity, because we believe that--in that way--we are best 
able to serve our country not only in sustainable long-term 
economic growth in the mainland, but also in assisting our 
country to become a truly international player.
    Representative Meadows. Well said. Thank you both for your 
illuminating testimony. I am going to turn it over to our very 
capable staff. I apologize for monopolizing the time.
    Ms. Chan. Thank you very much.
    Mr. Lee. Thank you.
    Mr. Protic. Ms. Chan and Mr. Lee, thank you again for 
coming to testify at the roundtable. Thank you for your 
courage, your patriotism. We appreciate it.
    Ms. Chan. Thank you.
    Mr. Protic. The Basic Law requires a candidate for chief 
executive to be nominated by a broadly representative 
nominating committee. Have you seen any indication from either 
the central government or the Hong Kong Government about 
exactly how broadly representative the nominating committee for 
the 2017 chief executive election will be?
    Ms. Chan. Well, we take the Basic Law as it stands. The 
Basic Law says that the nominating committee for the nomination 
and election of the Chief Executive shall be broadly 
representative and that the nomination process shall be a 
democratic process. We are currently engaged in arguing exactly 
what do these words mean.
    In the eyes of the Hong Kong people, it is pretty 
straightforward. There can be no arguments about what is meant 
by ``broadly representative'' and ``democratic process.'' Yet, 
we hear time and again from Beijing officials, coming to Hong 
Kong, and from the pro-Beijing forces in Hong Kong that it 
means totally different things. There is a serious attempt 
afoot to rewrite the provisions in the Basic Law as to how you 
constitute the nominating committee.
    In short, what we are saying is to meet the criteria laid 
down in the Basic Law. We want a set of universal suffrage 
proposals that gives choice to the voters, that does not 
attempt to set down unreasonable restrictions to stop anybody 
from standing for election as a Chief Executive and third, that 
you cannot reject anybody who happens to have different 
political affiliations from the ones that Beijing may prefer.
    On this basis, I think at the end of the day we will look 
to see what sort of credible proposals this government comes up 
with; in the meantime I have to stress Beijing seems to want to 
force down our throat a set of proposals essentially which will 
ensure a rigged election and will guarantee them 100 percent 
that their anointed candidate will win. That is not what we are 
seeking.
    Mr. Protic. Thank you.
    Mr. Liu. Our staff has one more question and I'll turn it 
over to David Petrick to ask a question. Thanks.
    Mr. Petrick. Thanks for coming.
    I was wondering if you could speak to the political 
environment within Hong Kong, specifically what the attitude of 
the current Hong Kong Government is toward implementing 
universal suffrage.
    Ms. Chan. We unfortunately have a Chief Executive who has 
now been in post for two years, but who has not convinced the 
community that he either shares our core values or is committed 
to implementing ``one country, two systems.'' He has not taken 
a leading role in forging a consensus on universal suffrage. He 
has relegated this task to his Chief Secretary, Mrs. Carrie 
Lam, and she is doing a very difficult job in a very difficult 
situation.
    The feeling of the community overwhelmingly is that CY, the 
Chief Executive, is not going to stick his neck out, is not 
going to speak on behalf of the Hong Kong people, but will take 
instructions from Beijing. So it underlines the urgency for 
Hong Kong people to use this period, before the government 
comes up with concrete proposals, to lay out exactly what the 
minimum acceptable deal is since we cannot, unfortunately, rely 
on the SAR Government to take the lead.
    It is a great pity because we know that, given the sharp 
divide in public opinion on how to move forward on universal 
suffrage, and bearing in mind we need to secure two-thirds 
majority in our legislature and we need to secure the approval 
of the central government, it is crucially important that the 
government be willing to take a leadership role in this whole 
discussion. But we are so far not seeing that.
    Mr. Lee. May I elaborate a little? This Government of Hong 
Kong doesn't decide on this important question. It's waiting 
for instructions from Beijing, period.
    Mr. Liu. Okay. Thank you.
    Just real quickly, we have a few more minutes left. I know 
we started a little bit late. I wanted to give the audience a 
chance to ask a question or two, if we could try to fit that 
in. I would just ask you to keep your question brief. We have 
some mics in the room so if you have a question, if you want to 
go back to--sure. Sure.
    Ms. Worden. Hello, I'm Minky Worden from Human Rights 
Watch. You paint a rather distressing picture of the current 
environment in Hong Kong. But can you tell us about the younger 
people, those who perhaps were only born at the time of the 
handover? What is their attitude, what is their approach? Are 
they prepared to defend the freedoms and the rule of law in 
Hong Kong that they have grown up with?
    Mr. Lee. Well, I can think of two good reasons why there is 
hope. The first, is sitting to my left, Anson Chan.
    [Laughter].
    Mr. Lee. Now, for many years she was in government. She was 
the most senior person in government next to the Chief 
Executive, both before and after the handover of sovereignty to 
China. In those days I used to argue with her, though not on 
everything. But now she's on my side. She has been making 
stronger arguments than I've done today. You can see that.
    The other reason is a young guy of 17 years of age called 
Joshua Wong. He's still in secondary school. About one-and-a-
half years ago it was suddenly revealed that the Hong Kong 
Government was trying to brainwash our kids. He spearheaded a 
movement which started with about 20 students demonstrating in 
the streets, and nobody paid any attention to it.
    Later on, some parents joined together because they didn't 
want their kids to be brainwashed. But again, only 100, 200 
people demonstrated. But within a short time, a hundred 
thousand people demonstrated outside the government 
headquarters. And that caused the government to withdraw its 
plan of brainwashing our children. Can you imagine a young 
student of 16 at the time leading such a big movement? So these 
are two good reasons, Anson Chan and Joshua Wong, why there is 
hope in Hong Kong.
    Ms. Chan. I think the real hope lies with the people of 
Hong Kong, a majority of whom treasure our values and are 
prepared to stand up and be counted.
    Mr. Liu. Okay. We have time for one more question. You, 
sir?
    Mr. Zeitlin. My name is Arnold Zeitlin and I had various 
associations with Hong Kong over the past 20 years. For Martin, 
I'd like to ask when the Democrats will get their act together, 
and for Ms. Chan, I would like to ask what your reaction has 
been to the reaction to your proposal to reshape, or shape, the 
nominating committee.
    Mr. Lee. Well, the Democrats always get their act together 
when they're under great pressure. And they are under great 
pressure now. So I expect them to get their act together pretty 
soon.
    Ms. Chan. Well, the initial reaction to our proposal which 
we have put forward a month ago has been better than I 
expected. What we did was, given the sharp divide in public 
opinion, we tried to find a course of action that conforms with 
what the government wished to see, which is to bring everything 
back, all proposals back within the strict parameter of the 
Basic Law. This is what we did.
    But at the same time we addressed the fundamental problem, 
which is, how do you make the nominating committee broadly 
representative? How do you prevent Beijing having a say right 
from the start, from the nominating process to the standing for 
elections? Of course, finally, they have the ultimate authority 
to appoint or not appoint the Chief Executive.
    So we have broadened the nominating committee from 1,200 to 
1,400 and widened the franchise to all 3.4 million registered 
voters in Hong Kong who will have a right to participate in 
nominating a chief executive. And for anybody who wants to 
stand for Chief Executive, all he needs to do, or she needs to 
do, is to secure 140 nominations from this 1,400-strong 
nominating committee to get in.
    Mr. Zeitlin. Does it have a chance?
    Ms. Chan. I would like to think it has a chance. The 
important thing is to try--when we get back, we will have more 
discussions within the community, particularly within the pan-
democratic camp and I'm hoping that somehow the pan-democratic 
camp will be able to come up with a set of proposals which we 
can unite behind, because then I think we stand a better chance 
of securing agreement.
    Mr. Liu. Okay. Thank you.
    I wanted to close the roundtable here. We have run out of 
time. I wanted to enter our Cochairman Congressman Chris 
Smith's statement into the record.
    I thank the audience for coming and most of all thank you, 
Ms. Chan and Mr. Lee, for helping us understand better here in 
Washington, in the United States, a very important issue that 
has not been getting enough attention, but I think that you 
have helped at least start a conversation here about that. So 
thank you again for coming, and this roundtable is adjourned.
    Ms. Chan. We thank you for this opportunity.
    [Applause].
    [The prepared statement of Representative Christopher Smith 
appears in the appendix.]
    [Whereupon, at 1:11 p.m. the roundtable was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


  Prepared Statement of Hon. Sherrod Brown, a U.S. Senator From Ohio; 
         Chairman, Congressional-Executive Commission on China

                             april 3, 2014
    Anson Chan and Martin Lee are here at a critical time for Hong 
Kong. The future of freedom and democracy in Hong Kong is under serious 
threat.
    China promised to let the people of Hong Kong freely elect their 
leaders and enjoy the freedoms of speech, press, and religion.
    China is backtracking on these promises.
    In just three short years, the people of Hong Kong are to elect 
their leader, the Chief Executive, in the first election by ``universal 
suffrage.'' But we know that China is already placing ``pre-
conditions'' on who can run, raising serious doubts about whether the 
elections will be free and fair.
    The environment for press freedom in Hong Kong is deteriorating. 
Incidents of violence and harassment against journalists have risen. 
Hong Kong's media faces ever-increasing pressure from mainland China.
    This Commission has made it a priority to monitor and report on 
developments in Hong Kong, and we will continue to do so.
    We, in Congress and on this Commission, must hold China accountable 
for its commitments. We must continue to listen and learn from people 
like our distinguished panelists today.
    Too much is at stake for Hong Kong, mainland China, and the 
international community.
    At the end of the day, Hong Kong is not just a financial center of 
7 million people.
    It is a test of China's commitment to the internationally 
recognized rights of people everywhere to freely elect their leaders 
and to enjoy basic freedoms.
    It is a test of whether China will allow genuine democracy and 
freedom to take root in Hong Kong.
    I urge China to follow through on its commitments.
                                 ______
                                 

  Prepared Statement of Hon. Christopher Smith, a U.S. Representative 
  From New Jersey; Cochairman, Congressional-Executive Commission on 
                                 China

                             april 3, 2014
    Today's roundtable examines the prospects for democracy and press 
freedom in Hong Kong. Thanks to our two guests, Martin Lee and Anson 
Chan, for joining us here today, and for their years of dedication to 
working for freedom and democracy in Hong Kong. We look forward to 
hearing their thoughts on the future of Hong Kong.
    Under the ``one country, two systems'' model, China guaranteed that 
Hong Kong could retain its separate political, legal, and economic 
systems for at least 50 years. Hong Kong's constitution, the Basic Law, 
protects the rights of the people of Hong Kong to free speech, 
assembly, and the power to choose their own government, ultimately 
through universal suffrage.
    This is clearly what is wanted by the people of Hong Kong, but 
increasingly, it seems, Beijing is unprepared to allow the people of 
Hong Kong to select leaders of their own choosing.
    Although China's central government agreed that universal suffrage 
would be implemented in time for the 2017 Chief Executive elections, 
recent statements by Chinese officials raise concerns that results will 
be fixed permanent in Beijing's favor.
    In Beijing, Qiao Xiaoyang, head of the Law Committee of the 
National People's Congress Standing Committee, demanded not only that 
candidates for Chief Executive must ``love the country and love Hong 
Kong,'' but also that they must ``not confront the central 
government.''
    In Hong Kong, Secretary for Justice Rimsky Yuen stated that the 
International Covenant on Civil and Political Rights does not apply to 
Hong Kong's elections, despite the fact that Article 39 of Hong Kong's 
Basic Law clearly states that the ICCPR would remain in force in Hong 
Kong after the 1997 handover.
    Beijing's attempt to stack the deck against democracy is 
disappointing, but not surprising to those who have watched China 
continually backpedal on its promises to the people of Hong Kong.
    The freedoms of the people of Hong Kong to choose their own 
government, to vote freely, and to stand for election are being called 
into question when there should be no question.
    Hong Kong's continued autonomy and the advance of its democracy is 
a concern of the U.S. Congress and of freedom-loving peoples 
everywhere.
    We are also concerned about the steady erosion of press freedoms in 
Hong Kong. According to the Press Index published by Reporters Without 
Borders, over the past decade Hong Kong's ranking has dropped from 34th 
to 61st.
    Two recent attacks have drawn attention to the deteriorating state 
of freedom of the press. In February of this year, Kevin Lau, recently 
dismissed as editor of the Ming Pao newspaper, was severely injured in 
a knife attack in broad day light. Less than a month later, two 
employees of the Hong Kong Morning News were beaten with metal pipes by 
masked men.
    Earlier this year, after outspoken radio host Li Wei-ling was 
fired, she publicly blamed the Chief Executive and the government of 
Hong Kong for pressuring her radio station in order to ``[suppress] . . 
. freedom of the press.''
    This trend is a chilling reminder that Beijing seeks to control 
both the media and the political process in Hong Kong. These actions 
raise critical questions whether the ``one country, two systems'' model 
can ever fully guarantee human rights and democracy for the people of 
Hong Kong.
    If given a real choice, people everywhere vote to advance 
representative governments that protect the rule of law and the 
fundamental freedoms of speech, assembly, association, and religion. 
The people of Mainland China do not have such a choice and attempts to 
pursue universally-recognized rights are often met with brutality and 
harassment.
    This cannot be Hong Kong's future.
    Hong Kong is the true embodiment of the ``China Dream'' and that 
fact may scare some in the Communist Party. We stand with those who 
want Hong Kong to remain free, vital, prosperous, and democratic--as 
Beijing has long promised.

                                 <all>

</pre></body></html>
